                         U.S. DEPARTMENT OF ENERGY
                        OFFICE OF INSPECTOR GENERAL


                               REPORT ON
         INSPECTION OF CONCERNS REGARDING DOE’S EVALUATION
           OF CHEVRON U.S.A.’S UNSOLICITED PROPOSAL FOR THE
                  ELK HILLS NAVAL PETROLEUM RESERVE




The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       Department of Energy Human Resources and Administration Home Page
                           http://www.hr.doe.gov/ig


 Your comments would be appreciated and can be provided on the Customer Response
                           Form attached to the report.




                         This report can be obtained from the
                              U.S. Department of Energy
                    Office of Scientific and Technical Information
                                      P.O. Box 62
                           Oak Ridge, Tennessee 37831


Report No: INS-0-98-01                        Office of Inspections
Date Issued: November 17, 1997                Washington, DC 20585
           REPORT ON INSPECTION OF CONCERNS REGARDING DOE’S
               EVALUATION OF CHEVRON U.S.A.’S UNSOLICITED
          PROPOSAL FOR THE ELK HILLS NAVAL PETROLEUM RESERVE



                                           TABLE OF CONTENTS

I.     INTRODUCTION AND PURPOSE ..................................................................... 1

II.    SCOPE AND METHODOLOGY ......................................................................... 1

III.   SUMMARY RESULTS OF INSPECTION ........................................................... 2

IV.    BACKGROUND .................................................................................................. 4

V.     RESULTS OF INSPECTION .............................................................................. 7

       UNSOLICITED PROPOSAL REVIEW PROCESS ............................................. 7

       Issue: Was the DOE review of the Chevron unsolicited proposal
       in accordance with the requirements found in DOE Order 4210.9A,
       “UNSOLICITED PROPOSALS?” ....................................................................... 7

       Conclusions ...................................................................................................... 14

       ADMINISTRATIVE DEFICIENCIES .................................................................. 15

VI.    RECOMMENDATIONS ..................................................................................... 17

VII.   MANAGEMENT COMMENTS ........................................................................... 17
                          U.S. DEPARTMENT OF ENERGY
                         OFFICE OF INSPECTOR GENERAL
                             OFFICE OF INSPECTIONS
                                WASHINGTON, DC


                               REPORT ON
         INSPECTION OF CONCERNS REGARDING DOE’S EVALUATION
           OF CHEVRON U.S.A.’S UNSOLICITED PROPOSAL FOR THE
                  ELK HILLS NAVAL PETROLEUM RESERVE


I.    INTRODUCTION AND PURPOSE

      An allegation was made to the Office of Inspector General (OIG) that the
      integrity of the Department of Energy’s (DOE) unsolicited proposal review
      process may have been compromised by the actions of a former Deputy
      Secretary of Energy and his Executive Assistant during the review of an
      unsolicited proposal received from Chevron U.S.A. Production Company
      (Chevron) in May 1993. The Chevron unsolicited proposal was for the
      management and operation of DOE’s Elk Hills Naval Petroleum Reserve (Elk
      Hills), located near Bakersfield, California. Chevron submitted the unsolicited
      proposal on May 19, 1993.

      DOE formally rejected Chevron’s unsolicited proposal in May 1995. Although
      Chevron’s unsolicited proposal was eventually rejected by DOE, the complainant
      specifically alleged that the “sanctity, integrity, and sensitivity” of the unsolicited
      proposal review process had been breached in meetings during the Fall of 1993
      between Chevron officials, the Deputy Secretary of Energy (Deputy Secretary),
      and his Executive Assistant.

      Based on our review of the allegation, we identified the following issue as the
      focus of our inspection:

      Was the DOE review of the Chevron unsolicited proposal handled in accordance
      with the requirements of DOE Order 4210.9A, “UNSOLICITED PROPOSALS?”


II.   SCOPE AND METHODOLOGY

      During this inspection, we interviewed the complainant, the former Deputy
      Secretary, and his Executive Assistant. We also interviewed DOE officials from
      the Office of the General Counsel (General Counsel), the Office of the Deputy
      Assistant Secretary for Procurement and Assistance Management
      (Procurement), and the Office of the Deputy Assistant Secretary for Naval


                                             1
       Petroleum and Oil Shale Reserves (NPOSR), who were involved in evaluating
       Chevron’s unsolicited proposal and in conducting preliminary negotiations with
       Chevron. We also reviewed applicable regulations and guidance governing
       unsolicited proposals, including DOE Order 4210.9A, “UNSOLICITED
       PROPOSALS,” dated June 6, 1993. We also analyzed documents contained in
       DOE’s Official File for the “Chevron Unsolicited Proposal.” Our inspection
       activities were conducted during the Summer and Fall of 1995.

       This inspection was conducted in accordance with Quality Standards for
       Inspections issued by the President’s Council on Integrity and Efficiency.




III.   SUMMARY RESULTS OF INSPECTION

       We found that DOE’s merit review process for the Chevron unsolicited proposal
       proceeded in accordance with the requirements of DOE Order 4210.9A,
       “UNSOLICITED PROPOSALS.” However, we also found that administrative
       deficiencies occurred in the processing of required documents during DOE’s
       review process. Specifically, required conflict of interest and procurement
       integrity forms were not always completed as required by those DOE officials
       involved with reviewing and evaluating Chevron’s unsolicited proposal.
       Additionally, the written approval of the Director of the Office of Clearance and
       Support, which was required for DOE to hold the unsolicited proposal longer
       than six months, was not obtained in accordance with the time frames specified
       in the Order for obtaining such approval. As a result, in July 1994, Departmental
       negotiators requested retroactive approval, effective February 20, 1994, to hold
       the unsolicited proposal until October 20, 1994.

       During an ongoing DOE “merit review and evaluation” of the May 1993 Chevron
       unsolicited proposal, a former Deputy Secretary and his Executive Assistant met
       with Chevron representatives. Both the Deputy Secretary and his Executive
       Assistant were in attendance at the first meeting with Chevron representatives.
       The Executive Assistant also attended a subsequent meeting with Chevron
       representatives. These meetings were later the subject of a complaint letter
       received by the Office of Inspector General. The complainant wrote that these
       meetings were “clearly inappropriate,” and such actions “undercut the integrity of
       the procurement process and the program office responsible for the operations
       of Elk Hills.” A former Deputy Assistant Secretary for NPOSR, the program
       office responsible for Elk Hills, also expressed concerns regarding the meetings
       to his supervisor, and later during this inspection to OIG inspectors, that the
       integrity of the unsolicited proposal review process had been violated contrary to
       DOE Order 4210.9A. However, the former Deputy Assistant Secretary for


                                            2
NPOSR was unable to identify to us a section of the applicable DOE Order
which he believed was violated during the unsolicited proposal review process.
When we reviewed the applicable Order, we were unable to identify any section
of the Order which we believed had been violated when the Deputy Secretary or
his Executive Assistant met with Chevron representatives.

We asked DOE Procurement and General Counsel officials involved in the
review of the Chevron unsolicited proposal if they viewed the meetings between
the Deputy Secretary, his Executive Assistant, and Chevron as being contrary to
DOE Order 4210.9A. These officials said they did not view the meetings as
being contrary to the Order. Also, our interviews of the Deputy Secretary and
his Executive Assistant, and our reviews of their DOE financial disclosure files,
did not reveal that they had any financial or personal interests in the outcome of
the Chevron unsolicited proposal.

We did find, however, that administrative deficiencies occurred in the processing
of required documents during the unsolicited proposal review process. DOE
Order 4210.9A, “UNSOLICITED PROPOSALS,” requires those involved in the
review of an unsolicited proposal to execute both conflict of interest and
procurement integrity forms. Attachment 2 of the Order under “GUIDELINES
FOR EVALUATING UNSOLICITED PROPOSALS SUBMITTED TO DOE,”
states: “All reviewers, whether Federal or non-Federal employees, shall execute
an appropriate conflict of interest statement. Further, for acquisition actions,
each evaluator shall complete the certification [Procurement Integrity
Certification for Procurement Officials] contained [in] . . . this attachment.” The
conflict of interest form is signed to certify that a reviewer has no conflicting
financial or other interest in the unsolicited proposal. The procurement integrity
form is signed to certify the reviewer’s understanding of the Office of Federal
Procurement Policy Act provisions governing the disclosure of proprietary and
source selection information.

None of the DOE officials involved in the unsolicited proposal process were
made aware of the conflict of interest certification requirement or executed a
conflict of interest form. Legal and procurement officials at DOE Headquarters,
including the DOE Unsolicited Proposal Coordinator, told us that the conflict of
interest forms should have been signed by all persons involved in the unsolicited
proposal review. We noted that DOE Order 4210.9A, while providing examples
of other types of forms, did not provide an example of a conflict of interest form.

Additionally, two senior DOE officials involved in the review process did not
execute the required procurement integrity forms. We were told that the Deputy
Secretary and other DOE officials involved in the review process, with the
exception of two officials, had executed procurement integrity forms. We
confirmed that the then Deputy Assistant Secretary for Gas and Petroleum
Technologies had been provided with the procurement integrity form, but failed


                                     3
      to properly execute it by signing and submitting the form. The Deputy Assistant
      Secretary for Gas and Petroleum Technologies could offer no explanation for
      why he did not sign and submit the form. The other official was the then
      Executive Assistant who, although attempts were made to provide him with a
      procurement integrity form, never processed the form because he said he never
      received the form, and he was unaware that he should have completed the form.

      DOE Order 4210.9A specifies that a written approval from the Director of the
      Office of Clearance and Support is required for an unsolicited proposal to be
      held by the Department beyond six months. The Chevron unsolicited proposal
      was held by DOE for more than six months while DOE officials negotiated with
      Chevron on matters related to the proposal. We were told by the then Director
      of the Office of Clearance and Support that the decision to negotiate with
      Chevron was not documented. Additionally, the written approval of the Director
      of the Office of Clearance and Support, which was required for DOE to hold the
      unsolicited proposal longer than six months, was not obtained in accordance
      with the time frames specified in the Order for obtaining such approval. As a
      result, in July 1994, Departmental negotiators requested retroactive approval,
      effective February 20, 1994, to hold the unsolicited proposal until October 20,
      1994.

IV.   BACKGROUND

      Elk Hills Naval Petroleum Reserve

      President William Howard Taft designated 38,000 acres at Elk Hills, California,
      as “Naval Petroleum Reserve Number 1” in 1912 to ensure a secure supply of oil
      for the U.S. Navy. Approximately 12,000 acres were initially owned by the
      Standard Oil Company of California, while 26,000 acres were owned by the U.S.
      Government. Chevron, as successor to Standard Oil Company of California,
      obtained the first production from an Elk Hills oil well in 1919 and has remained
      the co-owner of Elk Hills. The initial mission of Elk Hills was to conserve the oil
      field’s reserves for military needs. Chevron operated Elk Hills under negotiated
      operating agreements or competitive contracts from 1944 to 1975. Elk Hills
      remained largely inactive until 1976 when commercial sales began.

      In 1942, Chevron and the U.S. Navy agreed to enter into a “partnership
      agreement” known as the Unit Plan Contract (UPC). The UPC was authorized
      by Congress on June 19, 1944. Under the UPC, the Department of the Navy
      (Navy) was originally identified as the operator and given the right, either upon
      the basis of competitive bid or direct negotiation, to select, in its sole discretion,
      the operator for Elk Hills. Chevron was the operator of Elk Hills for the Navy
      until 1975. From 1975 to 1985, the contractor for Elk Hills was Williams
      Brothers Engineering Company of Tulsa, Oklahoma. In 1985, DOE selected
      Bechtel Petroleum Operations, Incorporated (Bechtel), as the management and


                                             4
operating (M&O) contractor. Bechtel’s M&O contract for Elk Hills, initially in
effect until 1990, was extended to September 30, 1996, with the option of an
additional extension.
The United States Congress passed the Naval Petroleum Reserves Production
Act of 1976 (NPR Act) in response to the early 1970’s oil embargo. The NPR
Act vested jurisdiction and control of Elk Hills in the Secretary of the Navy.
However, this authority was subsequently transferred to the Secretary of Energy
on October 1, 1977, by the Department of Energy Organization Act, Public Law
95-91, codified at 42 U.S. Code 7156. Among other requirements, the NPR Act
stipulated that the reserves be fully developed and operated at their maximum
efficient rate of production. In addition, the NPR Act authorized the sale of oil
from the various Naval Petroleum Reserves, including Elk Hills, in a public sale
to the highest bidder with revenues deposited in the U.S. Treasury. The NPR
Act also provided authority for the Secretary of the Navy, later transferred to the
Secretary of Energy, to enter into a contract for the management and operation
of the Elk Hills oil field for a five-year period, renewable at the Secretary’s
option, for an additional five-year period. Furthermore, both the NPR Act and
the UPC require the owners to periodically redetermine how the ownership
percentages are to be divided. During our inspection, the U.S. Government
owned about 78 percent of Elk Hills and Chevron, as co-owner, owned about 22
percent.

As the Bechtel M&O contract was approaching its expiration, DOE received an
unsolicited proposal for the operation of Elk Hills from Chevron. Chevron’s
unsolicited proposal was received on May 19, 1993, and was titled “To Reduce
Costs, Extend Economic Life and Increase Ultimate Recovery at the Naval
Petroleum Reserves in California.” Chevron’s unsolicited proposal claimed that
by making several operating improvements, Elk Hill’s operating costs could be
reduced by an estimated $37 million annually. Chevron made their unsolicited
proposal as co-owner of Elk Hills, and noted that, as a co-owner, Chevron was
required by the UPC to operate Elk Hills without a fee. The Chevron unsolicited
proposal was received by the DOE Unsolicited Proposal Coordinator at DOE
Headquarters on May 19, 1993, and was then forwarded to the Office of the
Deputy Assistant Secretary for NPOSR for a preliminary review in accordance
with DOE Order 4210.9A, “UNSOLICITED PROPOSALS.”

Following a favorable preliminary review, an evaluation of the proposal was
conducted. This evaluation developed into direct negotiations with Chevron
which continued until the Summer of 1994. By the Summer of 1994, DOE was
considering obtaining competition for the management and operation of Elk Hills
and negotiations with Chevron had stopped. On May 22, 1995, Chevron was
notified by letter that DOE was no longer considering their proposal. The 1996
National Defense Authorization Act mandated the sale of Elk Hills. On
October 6, 1997, DOE accepted a bid of $3.65 billion in cash from Occidental
Petroleum Corporation for the Government’s share of the Elk Hills Reserve.


                                     5
Closing of the transaction is expected to occur prior to the statutorily mandated
deadline of February 10, 1998.




                                     6
DOE Order 4210.9A

DOE Order 4210.9A, “UNSOLICITED PROPOSALS,” dated January 6, 1993,
sets forth the DOE policy, controls, and procedures for processing unsolicited
proposals. The provisions of this Order apply to all written submissions to the
Department on the initiative of the submitter for the purpose of obtaining a
contract from the Department. Per Paragraph 4 of the Order, the Department
follows the policy stated below with regard to unsolicited proposals:

      “Present and future needs of the Nation demand the involvement of
      all resources in exploring alternative energy sources and
      technologies. To achieve this objective, it is DOE policy to
      encourage external sources of unique innovative methods,
      approaches, and ideas by stressing submission of unsolicited
      proposals for Government support.”

DOE Order 4210.9A essentially establishes a two-phase process for receipt and
review of unsolicited proposals. Following the receipt of an unsolicited proposal,
a preliminary review is conducted. If the preliminary review is favorable, an
objective merit review and evaluation is conducted. These two phases are
discussed in more detail below.

Paragraph 10.b. of the Order encourages technical discussions between
Department personnel and prospective submitters prior to the submission of
unsolicited proposals. The actual processing of an unsolicited proposal begins
when an unsolicited proposal is received by the Department and is subsequently
forwarded to the Unsolicited Proposal Coordinator in DOE’s Office of Clearance
and Support. Upon receipt, the unsolicited proposal is logged and assigned an
unsolicited proposal number, after which it is forwarded to the appropriate
program or staff office for review. The appropriate program or staff official is to
complete a preliminary review of the unsolicited proposal within 30 days of
receipt to determine the existence of any immediately identifiable impediments to
the funding of the unsolicited proposal.

Paragraph 10.d. sets forth the procedures for preliminary reviews of unsolicited
proposals, including the identification of impediments to funding the proposal.
Such impediments include the following: a lack of programmatic interest; failure
to demonstrate a unique or innovative method, approach or idea; lack of funds
for support; substantial duplication of known research; recent, current or planned
solicitation; or existence of a program opportunity notice.

The preliminary review and other phases of the proposal review, are to be
conducted in accordance with 48 Code of Federal Regulations, Chapter 1,
subpart 15.5, Section 15.506-1, “Receipt and initial review.” In summary, this
regulation provides that, before initiating a comprehensive review, if the agency


                                     7
     point of contact does not have sufficient information to determine whether the
     unsolicited proposal meets specified requirements, then the point of contact
     shall provide the offeror an opportunity to submit the required data. Following
     the preliminary review, the Order states that submitters shall be notified of the
     review’s results.

     Following a favorable preliminary review, the program or staff official is to
     designate at least three additional qualified individuals to perform an objective
     merit review and evaluation of the proposal. The merit review and evaluation
     should normally be completed within six months of proposal receipt. If the
     objective and evaluation merit review and evaluation is favorable, and if the
     proposal is to be accepted, a justification for acceptance of an unsolicited
     proposal shall be prepared by the reviewing program office in accordance with
     applicable DOE procedures, the Department of Energy Acquisition Regulation,
     and the Federal Acquisition Regulation.

     If the proposal is to be funded, the appropriate Departmental official forwards the
     proposal, along with appropriate supporting documentation, to the appropriate
     procurement office for award. The Order states that a submitter shall be notified
     of DOE’s final decision to accept or reject an unsolicited proposal.

            Certification Requirements of DOE Order 4210.9A

     Attachment 2 of DOE Order 4210.9A requires that reviewers complete a conflict
     of interest statement, and a Procurement Integrity Certification for Procurement
     Officials. The Order states that “All reviewers, whether Federal or non-Federal
     employees, shall execute an appropriate conflict of interest statement.” Also, for
     acquisition actions, each reviewer must complete a “Procurement Integrity
     Certification for Procurement Officials.”

     Paragraph 10.f. establishes time frames for DOE’s review of unsolicited
     proposals. This paragraph specifies that “Final action on unsolicited proposals
     shall take place within 6 months of receipt.” For DOE to hold an unsolicited
     proposal longer than the time frame specified in the Order, Paragraph 10.f.
     requires that the Director of the Office of Clearance and Support certify in writing
     his or her approval.

V.   RESULTS OF INSPECTION

     UNSOLICITED PROPOSAL REVIEW PROCESS

     Issue: Was the DOE review of the Chevron unsolicited proposal in accordance with
     the requirements found in DOE Order 4210.9A, “UNSOLICITED PROPOSALS?”




                                           8
Based on the interviews conducted, records and other data we reviewed, we
found that DOE’s review process for the Chevron unsolicited proposal
proceeded in accordance with the requirements of DOE Order 4210.9A,
“UNSOLICITED PROPOSALS.” However, we found administrative deficiencies
in the processing of required documents during DOE’s review process. None of
the DOE officials involved in the unsolicited proposal process were made aware
of a conflict of interest certification requirement or executed a conflict of interest
form. Additionally, two senior DOE officials involved in the review process did
not execute the required procurement integrity forms. Additionally, the written
approval of the Director of the Office of Clearance and Support, which was
required for DOE to hold the unsolicited proposal longer than six months, was
not obtained in accordance with the time frames specified in the Order for
obtaining such approval. As a result, in July 1994, Departmental negotiators
requested retroactive approval, effective February 20, 1994, to hold the
unsolicited proposal until October 20, 1994.

The unsolicited proposal review process officially began on May 19, 1993, when
Chevron submitted an unsolicited proposal to operate Elk Hills. After a
preliminary review of the unsolicited proposal, DOE appointed a team to
evaluate Chevron’s unsolicited proposal (Evaluation Team). Following the
evaluation, DOE commenced preliminary negotiations with Chevron regarding
the Elk Hills operating agreement. However, by the Summer of 1994, DOE
began to consider competing the management and operation of Elk Hills and
negotiations with Chevron were stopped. Subsequently, competition was sought
through a November 1994 Commerce Business Daily (CBD) notice.

The governing requirements for the DOE unsolicited proposal review, as well as
the details of Chevron’s unsolicited proposal submission and DOE’s review
process, are discussed in the following sections.

Chevron’s Unsolicited Proposal Submission and Preliminary Review

In 1992, a DOE Elk Hills official and a Chevron official informally discussed the
possibility of Chevron once again managing and operating Elk Hills. Chevron
subsequently submitted an unsolicited proposal to DOE on May 19, 1993, for the
operation of Elk Hills. DOE then initiated a preliminary review in accordance
with the process identified in DOE Order 4210.9A, “UNSOLICITED
PROPOSALS.” Under this process, a preliminary review is conducted by the
appropriate program office, within a 30-day time period, to determine the
existence of any immediate impediments to funding the proposal.

According to the DOE Elk Hills Site Manager, about a year prior to Chevron
submitting its proposal, he and a senior Chevron official discussed the pending
expiration of the Bechtel contract and the possibility of Chevron once again
managing and operating Elk Hills. The Elk Hills Site Manager told us that, after


                                       9
this discussion, he learned that Chevron was in the process of drafting a
proposal for submission to DOE.

On May 19, 1993, Chevron submitted their unsolicited proposal entitled “To
Reduce Costs, Extend Economic Life and Increase Ultimate Recovery at the
Naval Petroleum Reserves in California.” Chevron’s proposal claimed that, by
making several operating improvements, the company could, among other
predicted benefits, reduce Elk Hill’s operating costs by an estimated $37 million
annually. Chevron made the proposal as co-owner of Elk Hills, and noted that,
as a co-owner, Chevron was required by the Unit Plan Contract to operate Elk
Hills without a fee. Upon receipt, the DOE Unsolicited Proposal Coordinator
processed the Chevron unsolicited proposal in accordance with the provisions of
DOE Order 4210.9A, “UNSOLICITED PROPOSALS.” The Chevron unsolicited
proposal was then forwarded to the Office of the Deputy Assistant Secretary for
Naval Petroleum and Oil Shale Reserves (NPOSR), the applicable program
office, for a preliminary review.

The preliminary review team found no immediate impediment to preclude DOE’s
acceptance of the Chevron unsolicited proposal. Our review of DOE documents
associated with the unsolicited proposal review found that a DOE procurement
official described the Chevron proposal as having “unique aspects related to
Chevron avoidance of fees.” Chevron was notified of the preliminary review
team’s favorable finding on June 2, 1993.

Evaluation Team’s Merit Review and Evaluation

Following conclusion of the preliminary review, an Evaluation Team was
established to conduct an objective merit review and evaluation of Chevron’s
unsolicited proposal. In a memorandum dated June 28, 1993, the Chairman of
the Chevron Unsolicited Proposal Evaluation Team established the Evaluation
Team. The Evaluation Team consisted of DOE procurement and legal
representatives, as well as DOE representatives from the Elk Hills Site, NPOSR,
and the Office of Fossil Energy. Subsequent to a July 8, 1993, “kick-off”
meeting, the Evaluation Team began its review and evaluation which was
targeted for completion within the six-month time frame specified by DOE Order
4210.9A. On October 26, 1993, during the Evaluation Team’s ongoing
evaluation of Chevron’s proposal, Chevron representatives met with the former
Deputy Secretary to discuss their proposal. During an October 28, 1993, DOE
Evaluation Team meeting, the Deputy Secretary’s meeting with Chevron officials
was discussed. On November 17, 1993, also during the evaluation process, the
then Executive Assistant to the Deputy Secretary met with Chevron
representatives regarding their proposal. The Deputy Secretary was briefed on
January 4, 1994, on the Evaluation Team’s progress. The role of these
meetings in the proposal review process is discussed in more detail below.




                                    10
      October 26, 1993, Chevron Meeting with the Deputy Secretary

On October 26, 1993, Chevron representatives met with the Deputy Secretary to
discuss Chevron’s unsolicited proposal. The meeting, which occurred during
DOE’s ongoing review and evaluation of Chevron’s unsolicited proposal, was
characterized on the Deputy Secretary’s schedule as a “drop-by” meeting.
Attendees at the meeting included the Executive Assistant to the Deputy
Secretary, the former Deputy Assistant Secretary for NPOSR, a Chevron vice-
president, a Chevron program director and a Chevron federal relations
representative. The Deputy Assistant Secretary for NPOSR told us that during
this meeting the Deputy Secretary expressed his intentions to accept the
proposal. However, the Executive Assistant told us that the Deputy Secretary
was only expressing approval of the proposal’s concepts. The Deputy Secretary
told us that, while he did not specifically recall the meeting, he was always
careful not to promote one vendor over another during any proposal discussions.
He did recall, however, that Chevron’s proposal contained cost savings and an
approach to operating Elk Hills that coincided with Departmental goals and
contract reform initiatives.

      DOE Evaluation Team Meeting on October 28, 1993

DOE Evaluation Team members met on October 28, 1993. Minutes of this
meeting indicate that the Deputy Assistant Secretary for NPOSR discussed the
Deputy Secretary’s October 26, 1993, meeting with Chevron. The then Director
of the Office of Clearance and Support told us he attended the October 28,
1993, meeting at which the Deputy Assistant Secretary for NPOSR said that
during the October 26, 1993, meeting, the Deputy Secretary authorized stopping
the evaluation process and the beginning of direct negotiations with Chevron.

The Deputy Assistant Secretary for NPOSR told us he was concerned that the
Deputy Secretary’s October 26, 1993, meeting with Chevron representatives
violated the integrity of the proposal review process and violated provisions of
DOE Order 4210.9A. The Deputy Assistant Secretary for NPOSR said he
discussed these concerns during the October 28, 1993, meeting and was
advised by the then Director of the Office of Clearance and Support, and also
the Special Assistant to the Deputy Assistant Secretary for Procurement and
Assistance Management, to document his concerns. However, when we spoke
with these officials they said that their advice to the Deputy Assistant Secretary
for NPOSR was not to document his concerns but to document, in a “decision
paper,” the Deputy Secretary’s verbal authorization to stop the evaluation
process and begin direct negotiations with Chevron. These two officials told us
they did not want to stop the evaluation process based solely on an
undocumented verbal authorization from the Deputy Secretary.




                                     11
Chevron’s Meeting with Executive Assistant on November 17, 1993

During the evaluation process, the Executive Assistant to the Deputy Secretary
met with a Chevron program official and a Chevron federal relations
representative on November 17, 1993. The Executive Assistant to the Deputy
Secretary told us that he could not specifically recall what had been discussed at
this meeting. In a memorandum dated November 19, 1993, the Deputy Assistant
Secretary for NPOSR notified his supervisor, the Acting Assistant Secretary for
Fossil Energy, of his personal concern that it was inappropriate for the Executive
Assistant to meet with Chevron representatives while the evaluation process was
underway.

Extension Granted

On November 19, 1993, at the conclusion of the original six-month period, the
then Director of the Office of Clearance and Support provided written approval
for DOE to hold Chevron’s proposal until February 20, 1994. This approval was
granted in response to a request from the Chairman of the Evaluation Team for
additional time to evaluate Chevron’s unsolicited proposal.

      Evaluation Team Meeting with the Deputy Secretary on January 4, 1994

On January 4, 1994, the Deputy Secretary was given a progress briefing by the
Evaluation Team. A senior Evaluation Team member told us the Evaluation
Team provided the Deputy Secretary with an alternative operating agreement
they had prepared for Elk Hills based on their revisions to Chevron’s proposal.
The senior Evaluation Team member said the Deputy Secretary had agreed with
the terms of the team’s alternative operating agreement. However, soon after
the meeting, the senior Evaluation Team member said the Deputy Assistant
Secretary for NPOSR told him that the Deputy Secretary had “flip flopped” and
rejected the alternative operating agreement. When we spoke to the Deputy
Secretary, he said that he could not recall the details of this briefing. According
to members of the Evaluation Team, including the Elk Hills Site Manager, it was
shortly after this briefing that direct negotiations with Chevron regarding an
operating agreement began. The senior Elk Hills contract official on the
Negotiation Team told us the Deputy Secretary intervened in the unsolicited
proposal review process by assigning the Office of Fossil Energy’s Business
Sector Manager for Oil and Gas to begin direct negotiations with Chevron.

Although DOE Order 4210.9A does not require any specific written approval to
begin direct negotiations with a proposal submitter, the Order does require the
preparation of adequate written records pertaining to proposal reviews. We
believe, due to the authorities vested in the Director of the Office of Clearance
and Support by the Order, that the written approval of the Director should be




                                     12
obtained prior to the commencement of direct negotiations between the
Department and the submitter of an unsolicited proposal.

Negotiation Team

The Evaluation Team found several areas for further negotiation in the Chevron
unsolicited proposal. As a result, members of a Negotiation Team were
recommended on February 3, 1994, and were appointed on March 1, 1994. The
Negotiation Team subsequently began negotiations with Chevron in Bakersfield,
California. However, written approval to hold Chevron’s unsolicited proposal
expired on February 20, 1994. At this point, the Deputy Assistant Secretary for
NPOSR voiced concerns to the then Acting Assistant Secretary for Fossil
Energy regarding the unsolicited proposal process. The negotiation activities
and the details of the concerns are discussed below.

The Deputy Assistant Secretary for NPOSR recommended members for the
Negotiation Team in a February 3, 1994, memorandum to the Acting Assistant
Secretary for Fossil Energy. The members recommended for the Negotiation
Team included two DOE Elk Hills senior managers, two DOE officials of the
Office of the Deputy Assistant Secretary for NPOSR, two officials from the DOE
General Counsel’s office, and a DOE procurement representative.

The Acting Assistant Secretary for Fossil Energy appointed the Negotiation
Team members on March 1, 1994. The Acting Assistant Secretary for Fossil
Energy notified the Deputy Secretary of the selections by memorandum on the
same date. The appointed Negotiation Team included the recommended team,
with the addition of the Office of Fossil Energy’s Business Sector Manager for
Oil and Gas.

The Team subsequently began negotiations with Chevron at Bakersfield. These
negotiations addressed such areas as future DOE involvement at Elk Hills,
applicability of DOE Orders and other Federal regulations for the “commercial
operations” at Elk Hills, and the validity of Chevron’s projected cost savings.
These negotiations were originally to be led by the DOE Elk Hills Site Manager.
However, we were told the negotiations were essentially “taken over” by the
Office of Fossil Energy’s then Deputy Assistant Secretary for Gas and Petroleum
Technologies, who had attended the negotiations as an “observer,” and the
Business Sector Manager for Oil and Gas. During the negotiations, operating
terms for Elk Hills were never agreed upon.

The handling of the proposal, to this point, resulted in the Deputy Assistant
Secretary for NPOSR voicing concerns to his supervisor, the then Acting
Assistant Secretary for Fossil Energy. On April 6, 1994, the Deputy Assistant
Secretary for NPOSR forwarded a memorandum to the Acting Assistant
Secretary for Fossil Energy, outlining his concerns regarding the review of the


                                    13
proposal. This memorandum addressed the possibility of impropriety regarding
the meetings between the Deputy Secretary, the Executive Assistant to the
Deputy Secretary, and Chevron officials.

The Deputy Assistant Secretary for NPOSR stated to Office of Inspector General
inspectors that these meetings specifically violated DOE Order 4210.9A, but was
unable, when offered a copy of the Order, to identify a specific citation for the
section of the Order allegedly violated. We reviewed the Order and found no
indication that the Order was violated through meetings with Chevron
representatives by the Deputy Secretary, or the Executive Assistant to the
Deputy Secretary. We asked DOE Procurement and General Counsel officials
involved in the review of the Chevron unsolicited proposal if they viewed the
meetings between the Deputy Secretary, his Executive Assistant, and Chevron
as being contrary to DOE Order 4210.9A. These officials said they did not view
the meetings as being contrary to the Order. Also, our interviews of the Deputy
Secretary and the Executive Assistant, and our reviews of their DOE financial
disclosure files, did not reveal that they had any financial or personal interests
in the outcome of the Chevron unsolicited proposal.

Competition For the Elk Hills M&O Contract Considered by DOE

By the Summer of 1994, DOE was considering obtaining competition for the
management and operation of Elk Hills and negotiations with Chevron had
stopped. During a meeting regarding the Chevron unsolicited proposal, the
Secretary of Energy expressed an interest in competing the contract for
operating Elk Hills. Subsequently, a Commerce Business Daily (CBD) notice
was published announcing DOE’s interest in competing the Elk Hills operation.
On May 22, 1995, Chevron officials were notified that DOE was no longer
considering their proposal. The existing operating contractor, Bechtel Petroleum
Operations, Inc., received an extension to their contract in July 1995. These
events are described in more detail in the following section.

The Secretary of Energy met with the Assistant Secretary for Fossil Energy, the
DOE General Counsel, and others on August 16, 1994, to discuss the Chevron
unsolicited proposal. In this meeting, the Secretary expressed an interest in
competing the contract for operating Elk Hills. We were told by those involved
with the negotiations that the Secretary’s comments in this meeting effectively
ended the negotiations with Chevron. In a September 13, 1994, meeting with
the Assistant Secretary for Fossil Energy and the Deputy Assistant Secretary for
NPOSR, the Elk Hills Site Manager was tasked with preparing a CBD notice.
This task was subsequently delegated to the DOE Elk Hills Contracts and
Financial Management Division.

The CBD notice, announcing DOE’s interest in competing Elk Hills’ operation,
was published on November 4, 1994. The notice sought expressions of interest


                                    14
from companies that would consider competing for the operating contract at Elk
Hills. The CBD Notice also announced that the Department was giving
consideration to Chevron’s unsolicited proposal. The Department sought to
determine if qualified commercial entities, in addition to Chevron, were
interested in participating in a competitive process for the operation of Elk Hills.
We were told by a DOE official in the Elk Hills Contracts and Financial
Management Division that approximately 17 companies expressed an interest in
operating Elk Hills.

On May 22, 1995, Chevron was notified by letter that DOE was no longer
considering their proposal. The letter from the Assistant Secretary for Fossil
Energy stated the following:

       “As you know, your proposal to become the operator of the Elk
       Hills field is no longer being considered by the Department of
       Energy. The Administration has determined that it would be in the
       best interest of the Nation to sell the DOE interest in the Elk Hills
       field to private industry by the end of FY 97 and, if unsuccessful in
       that effort, to continue to operate the field under a government
       corporation.”

The existing operating contractor, Bechtel Petroleum Operations, Inc.,
received a contract extension in July 1995 based on a provision in the National
Defense Authorization Act of 1995. Specifically, this contractual modification
extended Bechtel’s contract for a term of 14 months, through September 30,
1996, with an option to extend the contract for an additional ten months. This
extension provided for continued contractual coverage of the Elk Hills operation
during Congressional consideration of the future options, including the possible
sale of the Elk Hills field. The 1996 National Defense Authorization Act
mandated the sale of Elk Hills. On October 6, 1997, DOE accepted a bid of
$3.65 billion in cash from Occidental Petroleum Corporation for the
Government’s share of the Elk Hills Reserve.

Conclusions

We reviewed DOE Order 4210.9A and found no indication that the Order was
violated through meetings with Chevron representatives by the former Deputy
Secretary, or the then Executive Assistant to the Deputy Secretary. We asked
DOE Procurement and General Counsel officials involved in the review of the
Chevron unsolicited proposal if they viewed the meetings between the Deputy
Secretary, his Executive Assistant, and Chevron as being contrary to DOE Order
4210.9A. These officials said they did not view the meetings as being contrary
to the Order. Also, our interviews of the Deputy Secretary and the Executive
Assistant, and our reviews of their DOE financial disclosure files, did not reveal




                                     15
any financial or personal interests in the outcome of the Chevron unsolicited
proposal.

ADMINISTRATIVE DEFICIENCIES

We found that the review of the Chevron unsolicited proposal proceeded in
accordance with DOE Order 4210.9A. However, we found administrative
deficiencies in the processing of required documents during the review process.
DOE Order 4210.9A requires those involved in proposal reviews to execute
conflict of interest and procurement integrity forms. None of the officials
involved in the proposal process executed a required conflict of interest form.
Additionally, two senior DOE officials involved in the review process did not
execute the required procurement integrity form. Further, timely written approval
from the Director of the Office of Clearance and Support was not obtained once
the proposal was held beyond the six-month time frame specified in the Order.

Required Forms Not Executed

The required conflict of interest form was not executed by any official involved in
the Chevron unsolicited proposal review, including the former Deputy Secretary,
the then Executive Assistant to the Deputy Secretary, or any of the Evaluation
and Negotiation Team members. Legal and procurement officials at DOE
Headquarters, including the DOE Unsolicited Proposal Coordinator, told us that
the conflict of interest form should have been signed by all those involved in the
unsolicited proposal review. An NPOSR program office employee, who was
responsible for having the appropriate forms signed by the reviewers during the
review, told us that no one involved with the Chevron unsolicited proposal review
had signed a conflict of interest form or noticed the requirement in DOE Order
4210.9A to execute such forms. We noted that DOE Order 4210.9A, while
providing examples of other types of forms, did not provide an example of a
conflict of interest form. Procurement officials were unable to locate a copy of
the required conflict of interest form during our inspection fieldwork. When we
discussed this with the DOE Headquarters Procurement official responsible for
the content of this Order, he said that the Order needed revision to include the
appropriate example.

We were told that the Deputy Secretary and other DOE officials involved in the
review process, with the exception of two officials, had executed the required
procurement integrity form. This concern was one raised in the previously
discussed April 6, 1994, memorandum from the Deputy Assistant Secretary for
NPOSR to the Acting Assistant Secretary for Fossil Energy. The two officials
mentioned were the then Deputy Assistant Secretary for Gas and Petroleum
Technologies, and the Executive Assistant to the Deputy Secretary. We
confirmed that the Deputy Assistant Secretary for Gas and Petroleum
Technologies had been provided with the procurement integrity form, but had


                                     16
failed to properly execute it by signing and submitting the form. The Deputy
Assistant Secretary for Gas and Petroleum Technologies could offer no
explanation for why he did not sign and submit the form.

With respect to the Executive Assistant, the individual responsible for having the
procurement integrity forms signed by DOE reviewers during the Chevron
unsolicited proposal review told us that two attempts were made to obtain the
Executive Assistant’s signed procurement integrity form. This individual, a
secretary in the Office of Fossil Energy (Fossil Energy secretary), told us that
she personally delivered the procurement integrity form to the Executive
Assistant’s secretary in an attempt to obtain the signature of the Executive
Assistant on the form. When the form was not returned, the Fossil Energy
secretary told us that, rather than follow up with the Executive Assistant’s
secretary, she raised the issue with the Office of Fossil Energy’s Business
Sector Manager for Oil and Gas. The Fossil Energy secretary told us that the
Business Sector Manager promised to speak to the Executive Assistant about
signing the form. The Business Sector Manager told us he did not recall having
a conversation with the Fossil Energy secretary concerning this issue. The form
was never returned to the Fossil Energy secretary and she told us that she did
not follow up further. The Executive Assistant told us that his staff was
responsible for bringing to his personal attention items requiring his signature.
He also said he never saw the procurement integrity form and was unaware that
he should have completed the form.

Timely Written Approval Not Obtained

DOE Order 4210.9A specifies that written approval of the Director of the Office
of Clearance and Support is required when an unsolicited proposal is to be held
by the Department beyond six months. The Chevron unsolicited proposal was
held by DOE for more than six months while DOE officials negotiated with
Chevron on matters related to the unsolicited proposal.

As previously stated, on November 19, 1993, at the conclusion of the original
six-month period, the then Director of the Office of Clearance and Support
provided written approval for DOE to hold Chevron’s proposal until February 20,
1994. On July 21, 1994, the Director was presented with, and approved, a
retroactive request for written approval to extend Chevron’s unsolicited proposal
beyond February 20, 1994. This request, from a member of the Negotiation
Team, made reference to the “evaluation period” and requested that the Director
approve an extension from February 20, 1994, the expiration date of the first
extension beyond the original six-month period, until October 20, 1994.
However, we note that, at the time of the July 21, 1994, request for written
approval to extend the evaluation, direct negotiations with Chevron had already
commenced.




                                    17
VI.    RECOMMENDATIONS

       We recommend that the Deputy Assistant Secretary for Procurement and
       Assistance Management:

       1. Revise DOE Order 4210.9A, “UNSOLICITED PROPOSALS,” to include an
          example of a Conflict of Interest form, and take appropriate actions to ensure
          that this form and the Procurement Integrity Certification form are completed
          at the appropriate times during future unsolicited proposal reviews.

       2. Revise DOE Order 4210.9A, “UNSOLICITED PROPOSALS,” to require
          written approval by the Director of the Office of Clearance and Support to
          stop an unsolicited proposal evaluation and to begin direct negotiations with
          the submitter of the proposal.

       3. Ensure that advance written approval, as specified by DOE Order 4210.9A, is
          provided by the Director of the Office of Clearance and Support, should the
          need arise to hold future unsolicited proposals beyond the allowed six-month
          time frame.

VII.   MANAGEMENT COMMENTS

       A management official with the Office of the Deputy Assistant Secretary for
       Procurement and Assistance Management reviewed a draft of this report and
       concurred with Recommendation 1. Management advised that, during our
       inspection, DOE Order 4210.9A was revised and republished as DOE Order
       542.2. In conjunction with the new Order, management commented that the
       “Manual for Processing Unsolicited Proposals Submitted to the Department of
       Energy” was published June 5, 1997. Management responded that “The
       Manual, DOE M 542.2-1, includes an example of both the Conflict of Interest
       form and the Procurement Integrity Certification form, as recommended.”
       However, management suggested that “the Program Unsolicited Proposal
       Liaison Officers would be the appropriate individuals to undertake that
       responsibility.” We consider the action and suggestion by management to be
       responsive to Recommendation 1.

       With respect to Recommendation 2, management concurred in principle and
       commented:

              “We do not believe that it is appropriate for the Director of the
              Office of Management Systems (formerly the Office of
              Clearance and Support) to stop a proposal and direct
              negotiations. That is, no negotiations should be held until the
              proposal is accepted; discussions are appropriate in order to
              better understand the proposal. The procurement office which


                                           18
       will ultimately execute the contractual vehicle, should assume
       responsibility for directing negotiations to begin at the
       appropriate time and should provide such direction in writing.
       If any negotiations had occurred during the review, the
       procurement office may either continue those negotiations or
       repudiate them. The Director, Office of Management Systems,
       lacks the insight into the discussions underway during the
       course of a review, such that the Director would be unable to
       make an informed decision.

       We will revise the Order accordingly by September 30, 1998.”

We consider the planned action and suggestion by management to be
responsive to Recommendation 2.

With respect to Recommendation 3, management commented that, during our
inspection, DOE Order 4210.9A was revised (as DOE O 542.2) to require the
Unsolicited Proposals Coordinator to reject a proposal for which a final decision
has not been made within 12 months of receipt, absent an approved extension of
the review period beyond six-months. Management advised that the intent of
this revision was “to place a positive duty on the program office to conduct the
reviews and respond accordingly within the established time frames.” We
consider this action to be responsive to Recommendation 3.




                                    19
Report No. INS-O-98-01

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and, therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling,
   scope, or procedures of the audit would have been helpful to the reader in
   understanding this report?

2. What additional information related to findings and recommendations
   could have been included in this report to assist management in
   implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this
   report's overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken
   on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ___________________________
Date_____________________________

Telephone _______________________               Organization_____________-
__________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202) 586-1924.


                                           20
